No.

3fn Wlje

Supreme Court of tf)t ®mteb States:
EDWARD RONNY ARNOLD, Pro Se,
Petitioner;
v.

HERBERT SLATERY, III, State of Tennessee
Attorney General and Reporter,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

Edward R. Arnold
5036 Suter Drive
Nashville, TN. 37211
(615) 999-8044
January 20, 2020

Received
MAY -6 2020
SU£^^^q1jRTLU.s< I

1

QUESTIONS PRESENTED

In this case, the State of Tennessee Attorney
General and Reporter issued a legal opinion which
affected the civil action of Edward Bonny Arnold v.
Bob Oglesby Et AL, M2017-00808-COA-R3-CV
(Tenn. Ct. App. 2017) (17C133). This legal opinion,
filed in the brief to the State of Tennessee Court of
Appeals for the Middle District at Nashville, affected
Tenn. Code. Ann. § 4-4-105(a) (1), Title V of the
United States Code (5 U.S.C. § 6103) does not
address compensation. In essence, the State of
Tennessee is not required to pay earned wages to the
Plaintiff / Appellant for the substituted federal and
state holiday of Columbus Day.
The questions presented are:
1. Whether the United States Court of Appeals
for the Sixth Circuit erred in understanding the legal
opinion of the State of Tennessee Attorney General
and Reporter denied the Plaintiff / Appellant earned
wages and this iegal opinion affects all employees of
the State of Tennessee to which wages for full-time
employees are reduced one day. The denial of
compensation for the substituted federal holiday is a
violation of 29 CFR § 541.602, to which a fulltime,
exempt, employee’s wages cannot be decreased due to
the closing of state offices.
2. Whether the United States Court of Appeals
for the Sixth Circuit erred in understanding the
Defendant / Appellee did "NOT" send the

11

Plaintiff / Appellant a paper copy of the
documents submitted to the court in violation of
Fed. Rule 5.4.9 SERVICE OF DOCUMENTS BY
ELECTRONIC MEANS which requires both parties
to consent to electronic filing and constitutes an
unequal access to the courts by the low-income,
fixed-income, minority Pro Se litigant.
3. Whether the United States Court of Appeals
erred in not challenging the ruling of the United
States District Court for the Middle District of
Tennessee the Defendant / Appellee was not required
to respond to the DEFENDANT’S VIOLATION OF
FED. RULE. CIV. P. 5 (B) (E) IN FILING OF
MOTION FOR LEAVE TO FILE REPLY.
4. Whether the United States District Court for
the Middle District of Tennessee and the United
States Court of Appeals for the Sixth Circuit erred in
rendering its decision on documents not valid based
on Local Rule 5.4.9 and Local Rule 7.01 (b) and
whether the district court erred in dismissing the
case for lack of subject matter jurisdictiort.

iii

PARTIES TO THE PROCEEDING
The party to this proceeding is identified in this
petitions caption.
Tenn. R. Civ. P. 4.04(6) requires the Defendant,
Herbert Slatery, III Attorney General and Reporter
State of Tennessee to be served through the State of
Tennessee Office of the Attorney General and
Reporter.

IV

TABLE OF CONTENTS
Page
Questions Presented.........

1

Parties to the Proceedings

in

Appendix.............................

.VI

Table of Authorities.........

Vll

Opinion & Orders Below

1

Jurisdiction....................

1

Statutory Provision Involved

3

Statement................................

5

Reasons to Grant the Petition

24

I.
The United States Court of Appeals for the
Sixth Circuit erred in understanding the legal
opinion of the State of Tennessee Attorney General
and Reporter denied the Plaintiff / Appellant earned
wages and this legal opinion affects employees of the
State of Tennessee to which wages for full-time
employees are reduced one day.
A. This civil action meets the statutory standard
of 28 U.S.C. § 1331 (a).
B. This civil action meets the Mottley Rule.
C. Mottley Rule Statutory Component.
D. Mottley Rule Constitutional Requirement.

V

TABLE OF CONTENTS - Continued
Page
II.
The United States Court of Appeals for the
Sixth Circuit erred the Defendant / Appellee violated
Fed. Rule 5.4.9.
A. Fed. Rule 5.4.9.
B. Fed. R. App. P. 25(a)(2)(d).

III.
The United States Court of Appeals for the
Sixth Circuit erred in not challenging the ruling of
the United States District Court for the Middle
District of Tennessee the Defendant / Appellee was
not required to respond to the Defendant / Appellee’s
Violation of Fed. Rule. Civ. P. 5 (b) (e) in Filing of
Motion for Leave to File Reply.
A. Violation of Fed. Rule. 5.4.9 Service of
Documents by Electronic Means.
IV. The United States District Court for the
Middle District of Tennessee and the United States
Court of Appeals for the Sixth Circuit erred in
rendering its decision on documents not valid based
on Local Rule 5.4.9 and Local Rule 7.01 (b).
A. Submitted Documents Cannot be Used.
Conclusion

30

VI

APPENDIX
Page
United States Court of Appeals for the Sixth
Circuit Opinion ( 10/30/2019 )........................ App. 1
United States District Court for the Middle
District of Tennessee Nashville Division
Order (04/22/2019).......................................... App. 7
Defendant’s Violation of Fed. Rule. Civ.
P. 5 (b) (e) in Filing of Motion for Leave
to File Reply.................................................

App. 16

Defendant’s Violation of Fed. Rule. Civ.
P. 5 (b) (e) in Filing of Motion for Leave
to File Reply and Reply in Further Support
of Defendant’s Motion to Dismiss................ App. 21
Letter to Taylor Jenkins (5/17/2018) .
Notification of Defendant’s Violation of
Fed. Rule. Civ. P. 5 (b) (e) in Filing
of Motion for Leave to File Reply..........

App. 30

Letter to Herbert Slatery, III (5/17/2018) .
Notification of Defendant’s Violation of
Fed. Rule. Civ. P. 5 (b) (e) in Filing
of Motion for Leave to File Reply.............. App. 32

Vll

TABLE OF AUTHORITIES

Cases

Page

6 J. Moore, Federal Practice 55.03[2]
at 55-32 (2d ed. 1976)............. .................

22

10 C. Wright & A. Miller, supra note,
10, § 2682 .....................................................

22

American Well Works v. Layne,
241 US 257 (1916)............................

26

Blair v. Maynard,
324 S.E. 2d 391 (West Virginia 1984)

13

Edward Ronny Arnold v. Bob Oglesby,
Commissioner State of Tennessee Department
of General Services,
17C133.................................... .................................

i

Edward Ronny Arndld v. Bob Oglesby, Et. Al.
M2017-00808-COA-R3- CV
(Tenn. Ct. App. 2017)
i, 5, 9, 10, 17, 22
Edward Ronny Arnold v. Bob Oglesby, et al.,
M2019-01881-COA-R3-CV......................................
Edward Ronny Arnold v. Burns Phillips,
Commissioner State of Tennessee Department
ofLabor and Workforce Development,
No. 3:18-cv-0541 ....................................................

1

21

Vlll

TABLE OF AUTHORITIES - Continued

Cases

Page

Edward Ronny Arnold v. Burns Phillips,
Commissioner of the State of Tennessee Department
ofLabor and Workforce Development,
19-5362
21
Edward Ronny Arnold v. JeffMcCord,
19-5737 ...........................................................

16

Edward Ronny Arnold v. Herbert Slatery,
III, State of Tennessee Attorney General
and Reporter,
19-5509 ................................................................. 1, 2, 19
Fisher y. Taylor,
1 F.R.D. 448, 448 (E.D. Tenn. 1940)
Jones v. Flowers,
547 U.S. 220, 235 (2006)
Louisville & Nashville R. Co. v. Mottley,
211 U.S. 149 (1908)........................................

21

8

26

Mullane v. Central Hanover Bank & Trust Co.,
339 U.S. 306, 314 (1950).......................................... 8
Osborn v. Bank of the United States,
9 Wheat. (22 U.S.) 738 (1824)...............

26

IX

TABLE OF AUTHORITIES - Continued
Cases

Page

Redwing v. Catholic Bishop for Diocese of
Memphis,
363 S.W..3d 436, 445 (Tenn. 2012)................... 9, 17
Richards v. Jefferson County,
517 U.S. 793 (1996)......................

8

SEC vs. Samuel H. Sloan,
436 US 103 (1978)...................

16

S.L. T. Warehouse Company v. Webb,

304 So. 2d 97 (Fla 1974).....................

11

United States v. Jackson,
25 F. Supp. 79, 79-80 (D. Or. 1938)

21

STATUTES

Tenn. Code. Ann. § 4-4-105 (a) (1) .
Tenn. Code. Ann. § 20-13-02 (a)

passim
5, 9

Tenn. Code. Ann. § 39-16-402 (a) (3)

9, 11, 12

5U.S.C. § 6103....................................

passim

X

TABLE OF AUTHORITIES - Continued
Page
28 U.S.C. § 1291.........

3

28 U.S.C. § 1331.........

v, 24, 26

28 U.S.C. § 1654 .........

14

29 CFR § 541.602 ....

i, 6, 25

44 U.S.C. § 3301 (1) (2)

7, 19

RULES AND REGULATIONS

Fed. R. App. P. 25(a)(2)(D)

v, 27

Fed. Rule. Civ. P. 5 (b) (e) .

passim

Fed. R. Civ. P. 5.4.9.........

passim

Fed. R. Civ. P. 7.01 (b)........................ ii, v, 7, 21, 28
Rule 10 of the U.S. Supreme Court.

1

Rule 28.8 of the U.S. Supreme Court

14

Tenn. R. Civ. P. 4.04 (6).....................

iii, 11

Tenn. R. Civ. P. 12.02 (1)...................

11

XI

TABLE OF AUTHORITIES - Continued
Page
OTHER AUTHORITIES

Tenn. Const. Art. XI, Sect. 5

18

Tenn. HJR 0657

18

U.S. Const, amend 1

30

U.S. Const, amend 14
U.S. Const. Art III, Sect. 2

22, 30
26

1
Edward Ronny Arnold, Pro Se, respectfully
petitions for a writ of certiorari to review the
judgment of the Sixth Circuit in this case.

OPINION AND ORDERS BELOW
The United States Court of Appeals for the Sixth
Circuit’s October 30, 2019 panel opinion for 19-5509
filed 10/30/2019 mandated 01/30/2020 is not
published and reproduced at App. 1-6.

JURISDICTION
This Court has jurisdiction under Rule 10 Considerations Governing Review on Certiorari
compelling reason (a), (c).
(a) a United States court of appeals has entered a
decision in conflict with the decision of another
United States court of appeals on the same
important matter; has decided an important
federal question in a way that conflicts with a
decision by a state court of last resort; or has so
far departed from the accepted and usual course
of judicial proceedings, or sanctioned such a
departure by a lower court, as to call for an
exercise of this Court’s supervisory power.
(c) a state court or a United States court of
appeals has decided an important question of
federal law that has not been, but should be,
settled by this Court, or has decided an important

2

question in a way that conflicts with relevant
decisions of this Court.
In this case, the United States District Court for
the Sixth Circuit dismissed a civil action which
violated established rules of civil procedure in that
Fed. Rule 5.4.9 SERVICE OF DOCUMENTS BY
ELECTRONIC MEANS was dismissed as irrelevant
by ruling process was complete when the Plaintiff /
Appellant, pro se, did not have access to the
electronic system and the Defendant / Appellee did
“NOT” send the Plaintiff / Appellant paper copies
creating an unequal access to the court in violation of
due process as codified in U.S. Const. Amend. 1 and
U.S. Const. Amend. 14.
Fed. Rule 5.4.9 SERVICE OF DOCUMENTS BY
ELECTRONIC MEANS requires proper service upon
the Plaintiff / Appellant which was not completed. In
this case, the Defendant / Appellee, by and through
counsel, filed a reply memorandum to the court via
Electronic Case Filing (ECF) with full knowledge the
Plaintiff / Appellant did not have access to the
system.
The court further erred in allowing the Defendant
/ Appellant electronic filing (CM/ECF) in violation of
Fed. Rule 5.4.9 SERVICE OF DOCUMENTS BY
ELECTRONIC MEANS. Fed. Rule 5.4.9 requires
both parties to consent to electronic filing. This
consent is in written format and provides evidence to
the court both parties have equal access to the
courts.
Case 19-5509 was dismissed October 30, 2019 and
this Petition On Writ of Certiorari in the Supreme

3
Court of the United States was filed within the time
period of ninety (90) days before the judgment of the
United States Court of Appeals for the Sixth Circuit
was mandated on January 30, 2020.

STATUTORY PROVISIONS INVOLVED
28 U.S.C § 1291 provides, in part, courts of
appeals shall have jurisdiction of appeals from all
final decisions of the district courts of the United
States, the United States District Court for the
District of the Canal Zone, the District Court of
Guam, and the District Court of the Virgin Islands,
except where a direct review may be had in the
Supreme Court.
(June 25, 1948, ch. 646, 62 Stat. 929; Oct. 31, 1951,
ch. 655, § 48, 65 Stat. 726; July 7, 1958, Pub. L. 85508, § 12(e), 72 Stat. 348.)
In addition to the jurisdiction conferred by this
chapter, the courts of appeals also have appellate
jurisdiction in proceedings under Title
11,
Bankruptcy, and jurisdiction to review.

4
STATUTORY STANDARD OF
28 U.S.C. § 1331
This civil action meets the statutory standard of
28 U.S.C. § 1331 (a), the district courts shall have
original jurisdiction of all civil actions arising under
the Constitution, laws, or treaties of the United
States. TITLE V OF THE UNITED STATES CODE
(5 U.S.C. § 6103) created Tenn. Code. Ann. § 4.4.105
in an effort to coordinate Federal holiday office
closures with the State of Tennessee Federal holiday
office closures which includes: New Year's Day,
January 1; Independence Day, July 4; and Christmas
Day, December 25.
Both Federal and State statutes provide
directions to the celebration of Federal holidays if the
calendar date falls on a Saturday or a Sunday.

5
STATEMENT
The main issue before the court is if exempt
employees of the State of Tennessee will continue to
receive compensation for the federal and state
holiday of Columbus Day, second Monday in October,
for the substituted state holiday the Friday after
Thanksgiving, the fourth Thursday in November as
codified in Title V of the United States Code (5
U.S.C. § 6103) and Tenn. Code. Ann. § 4-4-105(a) (1)?
This case involves a legal opinion provided by the
Defendant / Appellee Herbert Slatery, III, State of
Tennessee Attorney General and Reporter in a brief
to the State of Tennessee Court of Appeals for the
Middle District at Nashville in the case of Edward
Ronny Arnold v. Bob Oglesby, et al., M2017-00808COA-R3-CV (Tenn. Ct. App. 2017). In this brief, the
Defendant / Appellee stated the Defendant /
Appellee, Bob Oglesby, et al., did not violate, in not
paying earned wages, Title V of the United States
Code (5 U.S.C. § 6103) and Tenn. Code. Ann. § 4-4105(a) (1) as they do not address compensation. In
essence, the Defendant / Appellee, Bob Oglesby, et
al., did not violate Tenn. Code. Ann. § 20-13-102 (a)
as the State of Tennessee is not required to
compensate exempt State employees for the Friday
after Thanksgiving, the fourth Thursday in
November, if the State of Tennessee Governor
exercised their discretion to open state offices on the
second Monday of October, and close state offices on
the Friday after Thanksgiving, the fourth Thursday
in November.
This legal issue affects the following twenty-five
(25) states: California, Colorado, Delaware, Florida,
Illinois, Indiana, Iowa, Kansas, Kentucky, Maryland,

6
Minnesota, Montana, North Carolina, Nebraska,
New Hampshire, Nevada, Oklahoma, Oregon,
Pennsylvania, South Carolina, Tennessee, Texas.
Virginia, Washington, and West Virginia.
Tenn. Code. Ann. § 4-4-105(a) (1) (3), first enacted
in the year 1996, gives the sitting Tennessee
governor discretion to open state offices and close
state offices in relationship to Title V of the United
States Code (5 U.S.C. § 6103); which established the
second Monday in October, Columbus Day, as a
federal holiday to which federal offices are closed.
For a period of twenty-three (23) years, 1996 2019, exempt employees of the State of Tennessee
have enjoyed the Friday after Thanksgiving as a paid
holiday.
For a period of 18 years, 1996 - 2014, the Plaintiff
/ Appellant, Arnold, enjoyed the exchanged State and
Federal holiday of Columbus Day, the Friday after
Thanksgiving, the fourth Thursday in November as a
paid holiday.
Modifications to Tennessee State Law by the
Tennessee General Assembly were based on Title V
of the United States Code (5 U.S.C. § 6103) and
complies with § 541.602 (a) (1) in that State
employees are paid, or their salary is not altered
(reduced), for the day off of the State of Tennessee
substituted Federal holiday of Columbus Day, the
Friday after Thanksgiving, the fourth Thursday in
November.
The issue before the court is the authority of Title
V of the United States Code (5 U.S.C. § 6103) to
direct Tenn. Code. Ann. 4-4-105 in compensation for

7
a substituted holiday, related to State of Tennessee
employee positions of exempt and non-exempt.
DEPENDENT’S VIOLATION OF CERTIFICATE
OF SERVICE
The basics of the United States judicial system is
the fundamental right to due process as codified in
U.S. Const. Amend. 1 and U.S. Const. Amend. 14.
Due process is necessary for the administration and
implementation of laws passed by elected officials
local, state, and federal. Due process cannot be
accommodated without Certificate of Service to
which proper notification has been provided to the
Court, Plaintifffs) and Defendant(s) respective.
Defendant’s filing of the Leave of the Court pursuant
to Local Rule 7.01 (b) to file a reply in support of
Defendant’s Motion to Dismiss via Electronic Case
Filing (ECF) violated due process by not complying
with Fed. Rule. Civ. P. 5 (b) (e).
The electronic filing system has moved from a
repository of data, as required by Title 44 of the
United States Code (44 U.S.C. § 3301 (1) (2)) to a
method of administering the court to which an
unequal access to the court for low-income, fixedincome, minority Pro Se litigants have an unequal
access to Federal and State Courts as shown in this
case.
Fed. Rule 5.4.9 SERVICE OF DOCUMENTS BY
ELECTRONIC MEANS requires proper service upon
the Plaintiff / Appellant which was not completed. In
this case, the Defendant / Appellee, by and through
counsel, filed a reply memorandum to the court via
Electronic Case Filing (ECF) with full knowledge the

8
Plaintiff / Appellant did not have access to the
system.
The court further erred in allowing the Defendant
/ Appellant electronic filing (CM/ECF) in violation of
Fed. Rule 5.4.9 SERVICE OF DOCUMENTS BY
ELECTRONIC MEANS. Fed. Rule 5.4.9 requires
both parties to consent to electronic filing. This
consent is in written format and provides evidence to
the court both parties have equal access to the
courts.
An elementary and fundamental requirement of
due process in any proceeding, which is to be
accorded finality, is notice reasonably calculated,
under all the circumstances, to apprise interested
parties of the pendency of the action and afford them
an opportunity to present their objections Mullane v.
Central Hanover Bank & Trust Co., 339 U.S. 306,
314 (1950); Richards v. Jefferson County, 517 U.S.
793 (1996).
This includes an obligation, upon learning that an
attempt at notice has failed, to take follow up
measures Jones v. Flowers,
U.S. 220, 235 (2006).
In this case, both the court and the Defendant were
notified of the failure to provide a proper Certificate
of Service. The Defendant’s failure to respond, within
the allotted time, presented an agreement to which
the Defendant violated Fed. Rule. Civ. P. 5 (b) (e),
Certificate of Service and the documents submitted
electronically are invalid; they cannot be used by the
court.

for

In this case, the Attorney General and Reporter
the State of Tennessee filed documents,

9
electronically, to which the Plaintiff / Appellant did
not have access too. The Attorney General and
Reporter did not send to the Plaintiff / Appellant
paper copies of the documents. It is reasonable to
conclude, the actions and inactions of the Defendant /
Appellee was to prevent the Plaintiff / Appellant
from responding to the documents submitted in the
time allocated for response. The Defendant / Appellee
knowingly violated Certificate of Service which
created an unequal access to the court for the lowincome, fixed-income, minority Pro Se litigant.
HISTORY
This case Edward Bonny Arnold v. Herbert
Slatery III, 19:5509 (2019) began when the defense
of sovereign immunity based on Tenn. Code. Ann. §
20-13-102 (a) began failing in the case of Edward
Ronny Arnold v. Bob Oglesby, Et AI, M2017-00808COA-R3-CV (Tenn. Ct. App. 2017) due to the opinion
of the State of Tennessee Supreme Court in the case
of Redwing v. Catholic Bishop for DioceSe of
Memphis 363 S.W.3d 436, 445 (Tenn. 2012) .
The Defendant, Herbert Slatery III, as State of
Tennessee
Attorney
General
and
Reporter,
representing Bob Oglesby, et al., issued a legal
opinion in a brief to the Tennessee Court of Appeals
for the Middle District at Nashville. The legal
opinion was intended to replace the failing defense of
sovereign immunity. In this case, the court issued its
opinion after the Defendant issued his opinion - the
Defendant, Bob Oglesby, et al., was not acting on the
authority of the state and could not use the defense

10
of sovereign immunity as codified in Tenn. Code.
Ann. § 20-13-102 (a).
The legal opinion of the Defendant / Appellee,
Herbert Slatery III, State of Tennessee Attorney
General and Reporter, was expressed to which the
Defendant / Appellee’s client, Bob Oglesby, et al., did
not violate Tenn. Code. Ann. § 39-16-402 (a) (3)
because the statutes do not address compensation
and the Plaintiff / Appellant is not entitled to wages
for the substituted federal holiday of Columbus Day
the Friday after Thanksgiving, the fourth Thursday
in November. The legal opinion was intended to
address the issue of earned wages in the case of
Edward Ronny Arnold v. Bob Oglesby, Et Al.,
M2017-00808-COA-R3-CV (Tenn. Ct. App. 2017) .
It is reasonable to conclude the Defendant /
Appellee, either in person or through the attorney of
record, advised his client Bob Oglesby, et al., not to
pay the earned wages to the Plaintiff / Appellant.

11
JUDICIAL LABOR AND FINALITY
Judicial Labor is the concept of the finality of a
case to which the determining finality of an order
ends the judicial process. The decision of the lower
court in this case merely follows the established
standards for determining whether an order is final
for purposes of appeal.
The general rule for determining whether an
order on appeal is final is whether the order
constitutes an end to the judicial labor in the cause
and nothing further remains to be done by the court
to effectuate a termination of the cause as between
the parties ' directly affected. S.L. T. Warehouse
Company v. Webb, 304 So. 2d 97 (Fla 1974).
In this case, the use of the court’s discretion to not
address basic aspects of law leaves many positions of
the Defendant / Appellee accepted without question.
These statements should not be accepted, without
question, for their statement alone but must be
shown to be accurate before the court. These issues,
introduced by the State of Tennessee Office of the
Attorney General and Reporter:
1. Tenn. Rule of Civil Procedure 4.04(6). Proper
service on a state official;
2. Inclusion of case citations in briefs to the court
which are not relevant;
3. Willful non-response to citizen and resident
complaints, issues, and concerns may violate Tenn.
Code. Ann. § 39-16-402 (a) (3);
4. The limitations of courts which dismiss a case
based on Tenn. R. Civ. P 12.02 (1);

12
5. The legality of Title V of the United States
Code (5 U.SiC. § 6103) and Tenn. Code. Ann. § 4-4105 (a) (1) (3) ;
have not been addressed by the courts.
The prior Courts' use of discretion to not address
these issues, concerns of law, leaves them
unanswered presenting a situation of accuracy, by
the State of Tennessee Office of the Attorney General
and Reporter, without legal authority, to confirm or
deny the accuracy.
FUNDAMENTAL FAIRNESS DOCTRINE
Fundamental fairness doctrine is a rule that
applies the principles of due process to a judicial
proceeding.
Fundamental-Fairness is considered synonymous
with due process. The due process guarantees under
the Fifth and Fourteenth Amendments to the U.S.
Constitution Clause provide that the government
shall not take a person's life, liberty, or property
without due process of law.
While the Fundamental Fairness Doctrine is
applied mainly in criminal cases before the court, the
Defendant / Appellee, as represented by the State of
Tennessee Office of the Attorney General and
Reporter, introduced into the civil action the Plaintiff
/ Appellee may have violated Tenn. Code. Ann. § 3916-402 (a) (3), official misconduct, in knowingly not
responding to the Plaintiff / Appellant’s request for
payment for earned wages and the statement of the

13
attorney or record, the Defendant / Appellee refused
to pay the earned wages because the Plaintiff /
Appellant filed an appeal.
The West Virginia Supreme Court of Appeals
explained:
The fundamental tenet that the rules of
procedure should work to do substantial
justice, . . . .commands that judges
painstakingly strive to insure that no person’s
cause or defense is defeated solely by reason of
their unfamiliarity with procedural or
evidentiary rules. . . . Cases should be decided
on the merits, and to that end, justice is served
by reasonably accommodating all parties,
whether represented by counsel or not. This
“reasonable accommodation” is purposed upon
protecting the meaningful exercise of a
litigant’s constitutional right of access to the
courts. Blair v. Maynard, 324 S.E.2d 391
(West Virginia 1984).
In this case, the use of the court’s discretion not to
address the notification of violation of Fed. Rule 5.4.9
(Service of Documents by Electronic Means) and Fed.
Rule. Civ. P. 5 (b) (e) (Certificate of Service) can be
argued as a violation of Fundamental Fairness for
both the Plaintiff / Appellant and the Defendant /
Appellee and a misuse of authority by the Defendant
/ Appellee Herbert Slatery, III, State of Tennessee
Attorney General and Reporter.

14
PRO SE LITIGANTS

Pro se legal representation comes from Latin pro
se, meaning "for oneself' or "on behalf of’. This
status is sometimes known as propria persona
(abbreviated to "pro per"). In the country of England,
the comparable status is that of “litigant in person”.
Although Federal statute, 28 U.S.C. 1654, states:
In all courts of the United States the parties
cases
may plead and conduct their own
personally or by counsel as, by the rules of
such courts, respectively, are' permitted to
manage and conduct causes therein.
In the year 2013, the United States Supreme Court
adopted Rule 28.8 that all persons arguing orally
must be attorneys. Oral arguments may be presented
only by members of the Bar of this Court. Attorneys
who are not members of the Bar of this Court may
make a motion to argue pro hac vice under the
provisions of Rule 6. Pro hac vice is a legal term for
adding an attorney to a case in a jurisdiction in
which he or she is not licensed to practice in such a
way that the attorney does not commit unauthorized
practice of law.
It has been perceived Pro Se litigants are not
allowed to argue orally before United States’ Courts

15
of Appeal. As stated in Case management procedures
in the federal courts ofappeal, Second Edition 1.
“In general, staff attorneys assist the courts of
appeals by screening appeals
and preparing
cases for disposition without argument. In
some courts, they concentrate on
pro se
cases, and in others they work on most civil
and criminal appeals, if only to make a
determination
about
preliminary
whether the case should be set for oral
the
argument. In the Sixth Circuit,
primary function of the staff attorneys’ office is
to assist the court in processing all pro se
appeals that do not require oral argument. In
the Fifth Circuit, staff attorneys perform
initial screening, placing cases into categories
ranging from “Class I” to “Class IV.” The class
designation affects whether a case is placed on
the oral argument calendar. For example, the
court has designated Class I cases as so
lacking in merit as to be deemed frivolous and
subject to dismissal. Class III and IV cases
make up the court’s oral argument calendars”
(p. 12).
In essence, it is perceived that “all” Pro Se
appeals are Class I.

1 Hooper, Miletich & Levy (2011). Case Management
Procedures in the Federal Courts ofAppeals.
Federal Judicial Center, 2nd edition (2011).

16
The role of staff attorneys, in the decision of Pro
Se litigation, screen appeals and prepare cases for
disposition without argument to make a preliminary
determination whether the case should be set for oral
argument. 2
The last non-attorney to argue orally before the
United States Supreme Court was Samuel Sloan in
1978. SEC vs. Samuel H. Sloan, 436 US 103 {1978).
The United States Supreme Court has also held that
where a statute permits attorney's fees to be
awarded to the prevailing party, the attorney who
prevails in a case brought under a federal statute as
a pro se litigant is not entitled to an award of
attorney's fees.
In this case, the Pro Se litigant is only entitled to
one day’s pay, $180.00 minus withholding, and the
cost of the appeal, $505.00. In difference, it is
reasonable to conclude the Defendant / Appellant has
expended more than $50,000 in labor cost to defend
the civil action. If the case of Edward Ronny Arnold
v. JeffMcCord 19-5737 is included, it is reasonable to
conclude the Defendant / Appellee has expended
more than $ 100,000 in labor costs and Judicial
Labor of the following courts: General Sessions
Davidson County, Tennessee; Sixth Circuit Court
Davidson County, Tennessee; Davidson County
2 See generally Penelope Pether, Sorcerers, Not
Apprentices: How Judicial Clerks and Staff
Attorneys Impoverish U.S. Law, 39 Ariz. St. L.J. 1
(2007) (discussing the role of staff attorneys and the
impact of their work—memoranda and draft
dispositions—on the decision-making process).

17
Chancery Court Part IV in Nashville, Tennessee;
Tennessee Court of Appeals for the Middle District at
Nashville; Tennessee Supreme Court; United States
District Court for the Middle District of Tennessee;
United States Court of Appeals for the Sixth Circuit;
United States Supreme Court, to defend civil actions
of unpaid wages and unpaid unemployment benefits
to which the total amount is considered at $730.00.
As stated in the introduction to the pending
research work Oral argument denied - the demise of
pro se litigation in United States' courts,
"The crime of Pro Se litigants is not that they
do not know the law, it is they refuse to roll
over. The opposing legal strategy is to render
the Pro Se litigant, and their civil / criminal
action, as irrelevant or opportunist before
the court with a stereotype Pro Se litigants are
crazy... It cannot be determined the exact
filings and positions as the court's use of its
discretion to not publish Pro Se briefs
marginalizes
low-income,
fixed-income
minorities by their judicial exclusion.” 3
The opinion of the Tennessee Court of Appeals for
the Middle District at Nashville in the case of
Edward Ronny Arnold v. Bob Oglesby, Et Al.,
M2017-00808-COA-R3-CV (Tenn. Ct. App. 2017)
redefined Tenn. Code. Ann. §20-13-02 (a) relevant to
Redwing v. Catholic Bishop for Diocese ofMemphis,
3 Arnold, E. R. (2020) Oral argument denied - the
demise of pro se litigation in United States’ courts
(research work in progress).

18
363 S.W.3d 436, 445 (Tenn. 2012) the concept of
Sovereign Immunity as the Defendant / Appellee
was required to be acting on the authority of the
state to withhold earned wages.
The decisions made by the Defendant / Appellant,
during civil actions, which began October 26, 2015,
may have contributed to a joint resolution filed in the
Tennessee General Assembly December 19, 2019,
which would change the attorney general and
reporter post from an appointed position to an
elected position. HJR 0657 seeks to amend the
Tennessee Constitution by making the position an
elected one. The bill states beginning with the
November 2024 general election and every 4 years
after, the post will be one selected by popular vote
and the term would be shortened to just 4 years.4
While there is no evidence to support a
relationship it is reasonable to conclude the
estimated expenditure of $100,000 tax payer dollars
to not settle civil actions, unpaid wages of one day
and errors in the implementation of the on-line
systems JOBS4TN.GOV and At.newappeals@tn.gov.,
total estimated at $670-.00, is a misuse of authority

4 A resolution to propose an amendment to Article
VI, Section 5 of the Constitution of Tennessee, to
provide for popular election of the Attorney General
and Reporter for the State. HJR 0657. Ill Tennessee
General Assembly. 2019 Reg. Sess. (Tenn. 2019).

21
As stated in the Plaintiffs Written Objections to
Report and Recommendation to the Honorable
William L. Campbell, Jr., District Judge, the court
erred in using documents which are not valid due to
the Defendant’s violation of Fed. Rule. Civ. P. 5 (b)
(e), Certificate of Service, as submitted to the court in
the Defendant’s filing of the Leave of the Court
pursuant to Local Rule 7.01 (b) to file a REPLY IN
FURTHER SUPPORT OF DEFENDANT’S MOTION
TO DISMISS via Electronic Case Filing (CM/ECF).
The misuse of this system is experienced in three
current civil actions. In the case of Edward Ronny
Arnold v. Burns Phillips, Commissioner State of
Tennessee Department of Labor and Workforce
Development, No. 19-5362, The United States Court
of Appeals for the Sixth Circuit dismissed the case
on May 15, 2019 but the Plaintiff did not learn of the
dismissal until June 14, 2019 a period of thirty-one
(31) days; to which there is a timetable for appeal. In
this case, the Plaintiff, Pro Se, does not have access
to the electronic system and a paper record was not
sent to the Plaintiff.
In the Case of Edward Ronny Arnold v. Burns
Commissioner State
of Tennessee
Phillips,
Department of Labor and Workforce Development,
No. Case No. : 3:18-cv-0541 the Court Clerk for the
United States Court for the Middle District of
Tennessee denied a default judgment based on
documents received more than eight (8) months after
the default date. The electronic documents, in
essence, were backdated eight (8) months and used
as evidence to deny the default filing in violation of

22

Rule 55(a) and Fisher v. Taylor, 1 F.R.D. 448, 448
(E.D. Tenn. 1940); United States v. Jackson, 25 F.
Supp. 79, 79-80 (D. Or. 1938); see 6 J. Wright,
Federal Practice 55.03[1] (2d ed.1976); 10 C. Wright
& A. Miller, supra note 10, § 2682.
In a third recent case, Edward Ronny Arnold v.
Bob Oglesby Et Al, M2017-00808-COA-R3-CV
(Tenn. Ct. App. 2017) a court order was entered to
which a statement is included: "If a motion for
summary judgment is filed, the moving party shall
email Special Master Nichols after filing the motion
for the purpose of scheduling a case management
conference. Defendant does not need to Cc Plaintiff
on the email as Plaintiff waved his right to notice
during the case management conference", Sixth Case
Management and Scheduling Order filed June 11,
2019 (page 1).
In this order the Defendant / Appellee, as
represented by the State of Tennessee Office of the
Attorney General, claims the Plaintiff waved all
rights to notice because of his position personal email is not an established method of communication
for the court system in the State of Tennessee. At the
present time, personal email is not an approved
method to conduct court business. However, in this
case, the court approved the denial of due process as
codified in U.S. Const, amend 14 based on the use, or
nonuse, of the Plaintiffs personal email.
In this case, the Plaintiff, Pro Se, does not have
access to the electronic system and the attorney of
record neglected to include, in the order, the Special

23

Master ordered the attorney of record to not send a
paper copy the Plaintiff. This verbal order requires
the Plaintiff to make periodic visits to the office of
the Court Clerk in Davidson County, Tennessee to
determine if a filing has been made and a visit to the
Court Clerk in Davidson County, Tennessee to
receive a copy of the order to which the Plaintiff is
required to purchase paper copies.
It should be of concern to the United States
Supreme Court a person's constitutional right to due
process can be removed because they do not have a
personal e-mail address. It should be of more concern
to the United States Supreme Court the incorrect
ruling of the United States District Court for the
Middle District in Tennessee is laying a foundation,
by precedent and stare decisis, a person's
constitutional right to due process is dependent on
their access to the courts’ electronic system CM/ECF.
The court erred in not understanding the
Defendant ‘did not’ send a paper copy and the
Plaintiff ‘does not’ have access to the system.
Certificate of service was not complete and the
documents submitted are not valid.
These three examples demonstrate a shifting
within the courts to which the electronic system
presents a misuse of judicial authority to which Pro
Se litigants, who are low-income and fixed-income,
are denied equal access to the court. This unequal
access affects minority groups to which they do have
access to computer equipment and a credit card for

24
payment to access the system; nor the knowledge of
how use the system.

REASONS TO GRANT THE PETITION
I. The United States Court of Appeals for the
Sixth Circuit erred in understanding the legal
opinion of the State of Tennessee Attorney General
and Reporter denied the Plaintiff / Appellant earned
wages and this legal opinion affects employees of the
State of Tennessee to which wages for full-time
employees are reduced one day.
A. This civil action meets the statutory standard
of 28 U.S.C. § 1331 (a).
This civil action meets the statutory standard of
28 U.S.C. § 1331 (a) as TITLE V OF THE UNITED
STATES CODE (5 U.S.C. § 6103) created Tenn.
Code. Ann. § 4-4-105 in an effort to coordinate
Federal holiday office closures with the State of
Tennessee Federal holiday office closures which
includes: New Year’s Day, January 1; Independence
Day, July 4; and Christmas Day, December 25. Both
Federal and State statutes provide directions to the
celebration of Federal holidays if the calendar date
falls on a Saturday or a Sunday.
Recently, 45th United States President Donald
John Trump (2017 - present), by executive order,
declared December 24, 2018 and December 24, 2019,
Christmas Eve, a Federal holiday.

25
In the year 2014, 44th United States President
Barack Hussein Obama (2009 - 2017) signed an
executive order giving federal employees the day off
on Friday, December 26 (when Christmas Eve fell on
a Wednesday). In the year 2012, he gave workers the
day off on Monday, December 24, 2012.
43rd United States President George Walker Bush
(2001 — 2009), by executive order, gave federal
workers Monday, December. 24 off in the years 2001
and 2007.
In this case, for a period of twenty-three (23)
years, since the year 1996, the sitting governors of
Tennessee have exercised their right to open state
offices on the second Monday of October and close
state offices the Friday after Thanksgiving, the
fourth Thursday in November as per Tenn. Code.
Ann. § 4-4-105 (3).
The issuance of executive orders by the current
and former presidents of the United States and the
current and former governors of the State of
Tennessee are based on TITLE V OF THE UNITED
STATES CODE (5 U.S.C. § 6103).
The legal opinion by the Defendant / Appellee,
Herbert Slatery III, State of Tennessee Attorney
General and Reporter, is in violation of TITLE V OF
THE UNITED STATES CODE (5 U.S.C. § 6103) and
denied earned wages by the Plaintiff / Appellant in
the year 2015 in violation of 29 CFR § 541.602, to
which a fulltime, exempt, employee’s wages cannot
be decreased due to the closing of federal or state
offices.

26
B. This civil action meets the Mottley Rule.
This civil action meets the Mottley Rule,
Louisville & Nashville R. Co. v. Mottley, 211 U.S.
149 (1908) in that the interpretation / legal opinion
of federal law, 5 U.S.C. § 6103, by the Defendant /
Appellee, Herbert Slatery, III, State of Tennessee
Attorney General and Reporter, affects state law,
and creates a federal question of jurisdiction.
This civil action meets the statutory component of
28 USC 1331 and the Constitutional requirement of
US Const. Art III, Sec 2.
C. Statutory Component
For federal question jurisdiction to exist, the
requirements of 28 USC 1331 must be met. This
statute gives federal courts jurisdiction only to those
cases which "aris[ej under" federal law. 28 USC
1331.
The Supreme Court has found that a "suit arises
under the law that creates the cause of action,"
American Well Works v. Layne, 241 US 257 (1916),
and therefore, only suits based on federal law, not
state law suits, create federal question jurisdiction,
Louisville & Nashville R. Co. v. Mottley, 211 U.S.
149 (1908). The plaintiff / Appellant’s initial
complaint contained references to the federal
question and the federal issue evoked.
D. Constitutional Requirement
Under Article III of the Constitution, federal
courts can hear "all cases, in law and equity, arising
under this Constitution, [and] the laws of the United

27
States..." US Const. Art III, Sec 2. The Supreme
Court has interpreted this clause broadly, finding
that it allows federal courts to hear any case in
which there is a federal ingredient. Osborn v. Bank
of the United States, 9 Wheat. (22 U.S.) 738 (1824).
II. The United States Court of Appeals for the
Sixth Circuit erred in not understanding the
Defendant / Appellee did "NOT" send the Plaintiff /
Appellant a paper copy of the documents submit-ted
to the court in violation of Fed. Rule 5.4.9.
A. Fed. Rule 5.4.9.
Fed. Rule. 5.4.9 allows the filing of documents
electronically but requires the submission of paper
copies to fulfill the requirement of Certificate of
Service if one of the participants does not have access
to electronic filing.
B. Fed. R. App. P. 25(a)(2)(D)
Fed. R. App. P. 25(a)(2)(D) states: Electronic
filing. A court of appeals may by local rule permit or
require papers to be filed, signed, or verified by
electronic means that are consistent with technical
standards, if any, that the Judicial Conference of the
United States establishes. A local rule may require
filing by electronic means only if reasonable
exceptions are allowed. A paper filed by electronic
means in compliance with a local rule constitutes a
written paper for the purpose of applying these rules.

28
III. The United States Court of Appeals erred in
not challenging the ruling of the United States
District Court for the Middle District of Tennessee
the Defendant / Appellee was not required to respond
to the Defendant’s Violation of Fed. Rule. Civ. P. 5
(B) (E) in Filing of Motion for Leave to File Reply.
A. Violation of Fed. Rule. 5.4.9 Service of
Documents by Electronic Means
The court further erred in allowing the Defendant
/ Appellant electronic filing (CM/ECT) in violation of
Fed. Rule 5.4.9 SERVICE OF DOCUMENTS BY
ELECTRONIC MEANS. Fed. Rule 5.4.9 requires
both parties to consent to electronic filing. This
consent is in written format and provides evidence to
the court both parties have equal access to the
courts.
IV. The United States District Court for the
Middle District of Tennessee and the United States
Court of Appeals for the Sixth Circuit erred in
rendering its decision on documents not valid based
on Local Rule 5.4.9 and Local Rule 7.01 (b).
A. Submitted Documents Cannot be Used
Due process cannot be accommodated without
Certificate of Service to which proper notification has
been provided to the Court, Plaintiff(s) and
Defendant(s) respective.

29
While the courts have ruled Certificate of Service
is complete when transmitted electronically, Fed. R.
App. P. 25 (e) states:
(e) sending it to a registered user by filing it with
the court's electronic-filing system or sending it
by other electronic means that the person
consented to in if the filer or sender learns that it
did not reach the person to be served; or writing—
in either of which events service is complete upon
filing or sending, but is not effective.
In this case, the papers filed are not valid as
service by mail and service by electronic means was
not complete. In this case, the court and the
Defendant / Appellee were notified in Defendant’s
Violation of Fed. Rule. Civ. P. 5 (b) (e) in Filing of
Motion for Leave to File Reply (Appendix 12). As
stated in the brief, the Defendant / Appellee did not
respond to the notification. The notification was filed
5/17/2018 and as of 2/14/2019, a total of two hundred
seventy-three (273) days an estimated nine (9)
months, the Defendant / Appellee had not filed a
response or filed a motion to provide additional time
to file a response.

30
CONCLUSION
To protect and preserve the right of
fixed-income, minority Pro Se litigants to
participate in the United States legal
guaranteed in U.S. Const. Amend. 1 and
Amend. 14, the petition should be granted.

low-income,
continue to
system, as
U.S. Const.

Respectfully submitted,

EDWARD RONNY ARNOLD
Pro Se
5036 Suter Drive
Nashville, Tennessee 37211
(615) 999-8044
edwardarnold@mindspring.com
Dated: January 20, 2020

